HHS/OIG, Audit -"Review of Claims for Multiple Procedures Performed in the Same Operative Session in Ambulatory Surgical Centers," (A-07-03-02663)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Claims for Multiple Procedures Performed in the Same Operative
Session in Ambulatory Surgical Centers," (A-07-03-02663)
January 9, 2003
Complete Text of Report is available in PDF format (498 KB). Copies can
also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our analysis was to evaluate the effectiveness of Palmetto
Government Benefits Administrator's claims processing system in identifying
payment reductions for multiple ambulatory surgical center (ASC) procedures
for calendar years 1997 through 2001.  Regulations require that when multiple
services are provided in the same operative session, the highest paying procedure
is reimbursable at the full payment rate while the other procedures are reimbursable
at one-half the normal payment rate.  Our analysis showed that Palmetto
Government Benefits Administrators systems failed to identify such instances,
which resulted in provider overpayments for calendar years 1997 through 2001of
approximately $647, $2,860, $8,934, $9,191, and  $24,719 ($46,351), respectively.
Included in the identified overpayments is approximately $10,181 in beneficiary
overpayments for coinsurance.  Most of the overpayments occurred because
the carriers processing system did not identify multiple procedures performed
during the same session when submitted on separate claims.